Audit Report




OIG-11-070
SAFETY AND SOUNDNESS: Failed Bank Review of Canyon
National Bank
May 19, 2011




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE O F
INSPECTOR GE N ERA L


                                                May 19, 2011


              OIG-11-070

              MEMORANDUM FOR JOHN WALSH
                             ACTING COMPTROLLER OF THE CURRENCY

              FROM:                 Susan Barron /s/
                                    Director, Banking Audits

              SUBJECT:              Failed Bank Review of Canyon National Bank


              This memorandum presents the results of our review of the failure of Canyon
              National Bank (Canyon) located in Palm Springs, California. Canyon operated three
              branches in the Palm Springs area and was designated by the Office of the
              Comptroller of the Currency (OCC) as a minority-owned bank. OCC closed Canyon
              and appointed the Federal Deposit Insurance Corporation (FDIC) as receiver on
              February 11, 2011. As of December 31, 2010, Canyon had approximately $210.9
              million in total assets. As of March 31, 2011, FDIC estimated that the loss to the
              Deposit Insurance Fund is $10.0 million.

              Because the loss to the Deposit Insurance Fund is less than $200 million, as set
              forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a review
              of the failure of Canyon that was limited to (1) ascertaining the grounds identified
              by OCC for appointing the FDIC as receiver and (2) determining whether any
              unusual circumstances exist that might warrant a more in-depth review of the loss.
              In performing our review we (1) examined documentation related to the
              appointment of FDIC as receiver, (2) reviewed OCC reports of examination for the
              5 year period before the bank’s failure, and (3) interviewed OCC personnel.

              We conducted this performance audit during February and March 2011 in
              accordance with generally accepted government auditing standards. Those
              standards require that we plan and perform the audit to obtain sufficient,
              appropriate evidence to provide a reasonable basis for our findings and conclusions
              based on our audit objectives. We believe that the evidence obtained provides a
              reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-070
Page 2

Causes of Canyon’s Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank had
experienced a substantial depletion of assets or earnings due to unsafe or unsound
practice, (2) the bank’s losses depleted all or substantially all of its capital and there
was no reasonable prospect for the bank to become adequately capitalized, and (3) the
bank was critically undercapitalized.

The primary causes of Canyon’s failure were excessive concentrations in
commercial real estate (CRE) and construction loans, weak credit risk management
practices, and ineffective board and management oversight. Over the years, OCC
examiners identified various repeated weak credit risk management practices in
areas that included problem loan reporting, the appraisal process, financial analysis,
and concentration risk management. Canyon’s board and management failed to
properly identify and address potential and existing weaknesses in the loan
portfolio in a timely manner. In the end, asset quality deteriorated significantly,
which when coupled with the unprecedented decline in the residential real estate
market, depleted the bank’s earnings and capital, and ultimately led to Canyon’s
failure.

Conclusion
Based on our review of the causes of the Canyon’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. Accordingly, we have determined that a more in-depth review of
this bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated that it agreed with our conclusion as to the causes of the
failure of Canyon and that it had no concerns with our determination that an in-
depth review of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or
J. Mathai, Audit Manager, at (202) 927-0356.

Attachments
         OIG-11-070

       Attachment 1
Management Response
                                                   OIG-11-070

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
